<html>
<title> - IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORATION PROGRAMS: COLUMBUS, OHIO, FIELD HEARING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                  IMPROVING AND REFORMING OUR NATION'S
                    SURFACE TRANSPORTATION PROGRAMS:
                     COLUMBUS, OHIO, FIELD HEARING

=======================================================================

                                (112-8)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
65-736 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)








                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Burgett, Brian, President and CEO, Kokosing Construction Company.     8
Fromm, Barry, Chairman, US Railcar Company.......................     8
Gattozzi, Nick, Vice President of Government Advocacy, Greater 
  Cleveland Partnership..........................................     8
Lozier, Bill, Deputy County Engineer, Licking County, Ohio.......     8
Policinski, Mark, Executive Director, Ohio-Kentucky-Indiana 
  Regional Council of Governments................................     8
Schmenk, Hon. Christiane W., Mayor, city of Marysville, Ohio.....     8
Tuttle, Keith, President, Motor Carrier Service, Inc.............     8
Wray, Hon. Jerry, Director, Ohio Department of Transportation....     8

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Burgett, Brian...................................................    32
Fromm, Barry.....................................................    35
Gattozzi, Nick...................................................    37
Lozier, Bill.....................................................    40
Policinski, Mark.................................................    53
Schmenk, Hon. Christiane W.......................................    59
Tuttle, Keith....................................................    63
Wray, Hon. Jerry.................................................    74

                       SUBMISSIONS FOR THE RECORD

Greyhound Lines, Inc., Theodore Knappen, Government Affairs 
  Representative, statement on the role of intercity buses in 
  providing cost-effective improvements to our national 
  transportation system..........................................    77
Mark S. Miller, letter expressing opinions about necessary 
  changes to the Federal processes for prioritizing and funding 
  transportation and infrastructure improvements.................    82
Michigan Department of Transportation, Kirk T. Steudle, P.E., 
  Director, written testimony....................................    84
Mid-Ohio Regional Planning Commission, the Columbus Partnership, 
  the Columbus Chamber, the Columbus Regional Airport Authority, 
  and the Central Ohio Transit Authority, written comments.......    89
Ohio Environmental Council, David R. Celebrezze, Director of Air 
  and Water Special Projects, comments regarding the 
  transportation reauthorization bill listening tour.............    99
Statement for the record from: The Ability Center of Greater 
  Toledo; The AMOS Project; The Arc of Greater Cleveland; Autism 
  Society of Ohio; AXIS Center for Public Awareness; The Kirwan 
  Institute for Race and Ethnicity, The Ohio State University; 
  The Leadership Conference on Civil and Human Rights; Mid Ohio 
  Board for an Independent Living Environment (MOBILE); The Ohio 
  Higher Education Rail Network (OHERN); The Ohio Olmstead 
  Taskforce; Ohio Statewide Independent Living Council; Policy 
  Matters Ohio; PolicyLink; SEIU Local 1; Southeastern Ohio 
  Center for Independent Living; Transport Workers Union of 
  America, AFL-CIO; Tri-County Independent Living Center, Inc.; 
  and Western Reserve Independent Living Center..................   102
Terry Asphalt Materials, Inc., Dan Koeninger, President, 
  testimony on behalf of FP <SUP>2</SUP>, Inc....................   110


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 
                      IMPROVING AND REFORMING OUR
                     NATION'S SURFACE TRANSPORATION
                       PROGRAMS: COLUMBUS, OHIO,
                             FIELD HEARING

                              ----------                              


                      SATURDAY, FEBRUARY 19, 2011

                   House of Representatives
     Committee on Transportation and Infrastructure
                                            Washington, DC.
    The committee met, pursuant to call, at 10:30 a.m., in the 
Senate Finance Hearing Room, Ohio State House at 1 Capitol 
Square, Columbus, Ohio, Hon. John L. Mica (Chairman of the 
committee) presiding.
    Present: Representatives Mica, Shuster, Schmidt and Gibbs.
    Also Present: Representative Stivers.
    Mr. Mica. Good morning. I'm Congressman John Mica, chairman 
of the House Transportation and Infrastructure Committee of the 
United States House of Representatives, and I would like to 
call this hearing of the Committee to order.
    We are very pleased to be in the State capital of Ohio 
today. Today is a hearing of the Committee, the second in a 
series of a number of hearings, and also Committee listening 
sessions, that we we will be conducting across the United 
States of America.
    We started out in West Virginia at the beginning of this 
week, which was the home of the ranking member, Mr. Rahall. He 
is unable to be with us, but we started in his district, and I 
thought that was a good bipartisan effort to launch hearings on 
formulating our Nation's transportation policy and major 
legislation.
    We will meet across the country. This afternoon we're in 
Indianapolis, and from there Chicago. We're going out to 
Washington, the State of Washington. We have several sessions 
in California, including an unusual joint session with the 
United States Senate Public Works and Environment Committee, 
chaired by Ms. Boxer from California. And that will be a joint 
Senate/House Committee hearing on the same topic we're here 
today, again drafting our Nation's legislative policy.
    And we have a number of other stops, including Tennessee, 
Arkansas, Oklahoma, back to Florida, and then going back, 
because of the extended session this week, we are going back to 
New York and Pennsylvania, several other locations before we 
finish.
    The purpose of these hearings and these listening sessions 
is to solicit ideas, recommendations, how we can change Federal 
laws or procedures relating to anything the Federal Government 
is doing in regard to our transportation projects. And this 
will be a transportation bill, as opposed to just a highway 
bill, and we hope to cover, to have multi-modes in the bill.
    And I think that these hearings, again, are helpful to 
bring the best ideas from some of you who have had to deal with 
the Federal Government. And it's fitting that we have this 
hearing today in the Ohio Statehouse. I can't come here without 
remembering my good friend Paul Gillmor and his services here. 
I think about him, and his wife and family.
    But we're here on a wonderful occasion today, again, 
soliciting your ideas. If we seem a little bit groggy, every 
Member of Congress here today--and most of the staff--we were 
on the floor of the House voting at 4:30 this morning, and 
through the grace of American transportation, here we are at 
Columbus.
    We're only an hour late, but it is a second miracle that we 
are here, given that we probably had all the amendments--the 
number of amendments in the past three days, we had in the last 
session of Congress. And Members, I thank you for being here.
    And let me just say also that this week has been a busy 
week for the Committee. We passed a historic Federal Aviation 
Administration legislation. I happened to chair the Aviation 
Subcommittee from 2001 to 2007, and we passed the last FAA 
reauthorization in 2003, which expired--it was a four year 
bill. It expired in 2007.
    We've done 17 extensions, and the current extension runs 
out the 31st of March. The second miracle--well, maybe the 
third miracle, other than our being here this morning--is that 
the Senate, the United States Senate, actually passed the FAA 
bill.
    Now, it took them about four weeks. It's been on the floor 
of the Senate. But they passed it this week, so hopefully as 
soon as we get back we'll be doing two things. The other piece 
of legislation you may be interested in that relates to this 
hearing is, we have had six extensions since the expiration of 
our current authorization of Federal transportation policy. Its 
acronym is TLU.
    That expired in September of 2009. Unfortunately, we will 
do--and we passed out of committee--the next extension, at the 
request of many of the States, to go to September 30th. And we 
anticipate that that will be on the floor immediately upon 
return, the week we return, because the current extension 
expires with the CR on March 4th.
    So those are just some informational points for those who 
may be interested in seeing our progress in transportation. So 
we again have, unfortunately, a formal process. Not all of our 
sessions are this formal. This is a hearing, and we will take 
testimony. We want to also express to those that are not at the 
witness table, that you are just as welcome as any of the 
witnesses to submit to the committee your recommendations.
    And usually I find when we go out in the field, we get 
recommendations handed to us on the way out, or in the time 
shortly after our hearing. And many folks come up with great 
ideas. In our West Virginia hearing, actually I think some of 
the best ideas didn't come from the panel, it came from folks 
who chose to attend.
    And actually, several of them will get possible inclusion 
into the legislation if I have any say. So with your 
permission, we'll leave the record open for two weeks.
    Without objection, I move that we leave the record open for 
a period of two weeks for your submitting to the Committee your 
recommendations.
    So those are a couple of the points that I thought we'd 
make. What I'd like to do is, first--ordinarily we only 
recognize members of our panel, but we are pleased, actually, 
the be in the home district of one of the members. Steve 
Stivers, I'd like to recognize you first.
    And we'll go through the panel of Members of Congress for 
any opening statements or comments. We are delighted to be here 
at your request, and also Mr. Gibbs' request. Two of the new 
members are actually responsible for our being here today.
    So with that, if you wanted to comment, we will recognize.
    Mr. Stivers. Thank you, Mr. Chairman. I would like to 
welcome the Committee to Ohio's 15th Congressional District 
that we're sitting in now. And on behalf of Congressman Tiberi 
and Congressman Austria, I'd like to welcome the Committee to 
central Ohio.
    Obviously, transportation and infrastructure are very 
important to central Ohio. I'd like to thank the Chairman for 
bringing the Committee here. I'd like to thank all of the 
Committee members for coming, and I'd also like to thank them 
for allowing me to sit in. This is not my committee of 
jurisdiction, but I'm honored to be able to be here, and be 
sitting in on the hearing.
    I would like to make a few introductions, if that's all 
right, Mr. Chairman. I know that Mr. Gibbs and I drew straws, 
so he gets to introduce a few witnesses and I get to introduce 
a few folks. But I know he's going to introduce Mr. Wray, Mr. 
Burgett, and Mr. Lozier. And I believe that Congresswoman 
Schmidt is going to introduce Mr. Policinski. But I would like 
to introduce a few witnesses.
    Chris Schmenk, the mayor of Marysville is here to talk 
about a very important project for economic development for not 
only her county, and her town of Marysville, but for the whole 
region. And she'll talk a little bit about that. And it's great 
to have her here.
    I know that Mr. Gattozzi's here from the Greater Cleveland 
Partnership. It's good to have him here. And Barry Fromm, a 
good friend from here in central Ohio, is here to talk about US 
Railcar. It's good to have him here, and it's good to be 
talking about inter-modal and lots of different types of 
transportation.
    I'd also like to acknowledge a few folks in the audience, 
most notably our host in the back, President of the Senate, Tom 
Neihaus. I had the honor to serve with Tom here in the State 
Senate for six years. Spent a lot of long nights in this 
hearing room.
    So I've moved my long nights to another hearing room in 
another place, but thank you, Mr. President, for allowing us to 
use the people's house here, and the Senate hearing room, the 
finance hearing room, for this very important hearing. And it's 
great to see you again, and great to have you as President of 
the Senate. You're doing a great job.
    Chester Jordan from the Mid-Ohio Regional Planning 
Commission, very important for transportation projects. They do 
a lot of great planning work. He's here in the back.
    Jeff Stauts with the Union County Engineers here, and our 
friends from Consider Biking in the bike shirts over here. My 
good friend Doug Morgan, whom I consider the ambassador of 
biking, is not here today. But a lot of folks are, and I've had 
a chance to bike with him on Bike To Work Days, and other 
things. So it's good to have them in the room as part of the 
conversation.
    Now, obviously, transportation and infrastructure equal 
jobs, Mr. Chairman. That's why it's important to have you here, 
and we really appreciate having you here. I've talked with 
Director Wray about several ideas that I know he's working on 
to really leverage what goes on more, including working to cut 
the red tape between the work and coordination between the 
Federal Government and the State government.
    And I think there's a great example in my district of that. 
The 665/71 interchange was done where they actually shortened 
the time periods measurably, and made things happen. And I hope 
you'll talk about that as an example, and hold it out.
    I've also talked with the director a little bit about how 
we need to leverage funds by reducing the local match. And I 
assume he may talk about that. That's a project I'm working 
with him on as well, and I think it's something that will allow 
us to leverage funds and complete projects that are important 
to the community, not just projects where the local match is 
there and easy to find.
    So I'm happy to be here. I appreciate the opportunity. And 
I really appreciate you bringing the Committee to central Ohio, 
Mr. Chairman. Thank you, and I yield back the balance of my 
time.
    Mr. Mica. Thank you so much. Again, we are very grateful 
for the accommodation. As I said, we're also here at the 
request of one of the members of our Committee, which is Mr. 
Gibbs. Now, Mr. Gibbs and Mr. Stivers, they both have great 
experience in the legislative body here, and distinguished 
records of service.
    And I had to choose two new Members of Congress who are 
serving on our Committee to chair subcommittees. And I 
interviewed a number of them and looked at their backgrounds, 
and I could tell you how pleased I am with the decision to 
select Mr. Gibbs as the subcommittee chair, one of the few 
entering Members of Congress, probably in the history of 
Congress, to come in and chair a subcommittee.
    The Water Resources Subcommittee is one of the most 
important in Congress and has broad jurisdiction. But we are 
pleased to be close to your district, and I'm even more pleased 
to have your leadership on the Committee. And I recognize you 
at this time.
    Ms. Gibbs. Thank you, Mr. Chairman, and thank you for 
coming to Ohio. And thank you, Congressman Stivers and 
Congresswoman--I forgot her name for a second--Jean Schmidt, 
for being with us today.
    Ms. Schmidt. How quickly you forget, Bob.
    Mr. Mica. It could be your sister.
    Ms. Schmidt. We were up all night, I guess. But it was 
mentioned that Congressman Stiver was serving recently in the 
Senate, and I was too. Not quite two months. And by the way, 
gentlemen, my office was right on the other side of that wall. 
Right underneath the mezzanine there.
    But anyway, it's great to be here as we work on the 
challenges facing our infrastructure and transportation in the 
United States and Ohio. Just a couple of key points I just 
wanted to mention.
    Iowa's transportation system supports an about $472 billion 
economy. Its 5 million jobs Interstate system ranks fourth in 
the Nation, with over 6,700 miles, and we're committed to 
improve and build on that.
    One of the major problems--and that's one reason I'm so 
excited that the chairman's holding these hearings--is recent 
studies have determined that sometimes the Federal project 
delivery process can take up to 15 years to complete a project 
of simple construction
    And you know, when you take that long to do things, it adds 
to the costs and delays. And one thing we're trying to find is 
ways to change the policy and the process so that we can 
streamline and get those projects done faster and improve the 
infrastructure for our citizens.
    I think it's exciting, the panel we've got here today, 
because they deal with these issues on a daily basis, Mr. 
Chairman. And I look forward to hearing from them, and hearing 
how we can make things more efficient and help them do their 
job better.
    So I hope it cuts through that red tape and streamlines the 
project process, with--as I always like to say--a common sense 
approach. And I think if we can do that, we'll do a lot to 
improve the costs and help move commerce and people in the most 
efficient way possible.
    I do want to introduce some of the panelists. On the far 
end here is the Honorable Jerry Wray, the new Director of the 
Ohio Department of Transportation. I think he's the first and 
only in the history of the State of Ohio to have come back, Mr. 
Chairman. He was the director under Governor Voinovich. And 
Governor Kasich asked him to come back, so we're really looking 
forward to working with him.
    Next to him is Mr. Brian Burgett, up in Knox County. He's 
the CEO of Kokosing Company. They are a large highway 
contractor, and they do a lot of commercial work too. But I 
think what's also interesting, they do a lot of work in the 
maritime infrastructure, with locks.
    And that's a keen interest for me, especially being the 
chairman of that subcommittee that has the jurisdiction over 
the Army Corps of Engineers, and also the Clean Water Act with 
the EPA.
    To his left is Mr. Lozier, who is the Deputy Engineer at 
Licking County. I share that county--it's just east of here--
with Congressman Pat Tiberi. And I think he's going to soon be 
the engineer. But we've talked, and I think he's got a good 
perspective on what things we could do to help streamline those 
Federal dollars to help the county at the county level.
    So anyway, I'm looking forward to getting the testimony and 
the discussion, and I also do want to thank everybody for 
coming out today. This is how our system's supposed to work. We 
represent you, and get a chance to hear from you and try to 
make the best policy for the people of Ohio and the United 
States, and use your tax dollars wisely.
    Because resources are limited, and we all know that. And 
we've got to make things more efficient, and prioritize, and 
get the job done. So I yield back, Mr. Chairman.
    Mr. Mica. Thank you again for also hosting and requesting 
us to come to this part of Ohio.
    Now, the next member of the panel--and she is on our 
panel--there's no question, when Jean Schmidt serves on any 
panel, that she's on the panel and makes herself heard. She's 
an Energizer bunny.
    And it's just hard to believe she's already becoming a 
senior member of the Committee, but we have so many new members 
in Congress--we have 19 on the Committee, new members. And 
almost 90 in the House of Representative. And she chairs an 
important subcommittee on the Agriculture Committee, and we are 
pleased to have her on our panel.
    She also asked me to come to her district again. I've 
already been there, and she dragged me there almost 
immediately. And I'm very familiar with some of her projects, 
because she reminds me every day. But again, let me recognize 
the gentlelady--and the very aggressive lady--from Ohio, Jean 
Schmidt.
    Ms. Schmidt. Thank you, Mr. Chairman, and it is just two 
little projects, and then I'll be happy. But before I go into 
them, I would like to introduce the final two panelists.
    One is Mr. Keith Tuttle, who owns Motor Carrier Services 
Incorporated. And Mr. Tuttle is from Northwood Ohio, which is 
in the northeast section of the State. And he might know a 
little bit about the infrastructure needed for improvements, 
since his company has 90 tractors and 220 trailers. And we do 
look forward to hearing your testimony, sir.
    And the final one is Mr. Mark Policinski. And Mark is from 
my district, and he serves as the Director of the Ohio-
Kentucky-Indiana Regional Council of Governments, or OKI, since 
November of 2003.
    So I knew Mark in my past life as a State representative, 
and my current life in the Congress. He has held senior level 
positions in the private sector, and in government service on 
Capitol Hill and in the Reagan administration. And I have known 
him for a very long time.
    And before I turn it back, Mr. Chairman, I just want to 
mention that I really am grateful for you for bringing this 
committee to Ohio. Because as my good friend Mr. Gibbs 
mentioned, we have the sixth-most used roads in the country, 
and more importantly--or the fifth-most used highway system in 
the country.
    But more importantly, we have a little bridge in 
Cincinnati, Mr. Chairman, which I pointed out to you, called 
the Brent Spence Bridge, which is the sixth-most used bridge in 
the country. And while structurally it has about a B rating, 
capacity-wise it has an F -. And we really need to have a new 
bridge.
    And when my good friend Mr. Gibbs talked about delay in 
transportation, each and every month that we wait for this 
bridge to get built adds about another $1 million in costs for 
the bridge.
    So it's really important that we look at structural needs 
like this, and have a way to cut through the red tape so that 
we can save the taxpayers money. And along with that, I've been 
working with Mark on the eastern corridor project. And so Mr. 
Chairman, if you could just let me have those two projects, I'd 
be really nice. I'll turn it back to you.
    Mr. Mica. I told you she never misses an opportunity. We 
are delighted to have her leadership also on the committee. 
Now, this is sort of a star-studded cast. We also have, from 
the State of Pennsylvania--and you've probably heard the name 
before--Shuster.
    His dad was the chairman of the committee, and probably one 
of the most successful chairs that we've ever had of the full 
committee in Congress. But Bill Shuster has chaired one of our 
subcommittees, a different subcommittee: Economic Development, 
Public Buildings, and Emergency Managment. And he now chairs 
the Rail Subcommittee, covering rail, hazardous pipelines, I 
think a whole bunch of things like that.
    But we are delighted that he would join us today, and let 
me recognize him for an opening statement.
    Mr. Shuster. Thank you, Mr. Chairman. And for me, this is a 
return to Ohio. I worked for a company and covered southern 
Ohio for three years back in the late 1980s, so it's been 20 
years since I've been in Columbus. It's good to be back. I 
obviously have fond memories of Ohio, and I'm glad to be here 
today, and in many places across the country.
    As the Chairman said, we'll be taking the John Mica road 
show across the country, or the Mica Magical Mystery Tour. And 
as we're going to find out, some of these places we're going 
to--we hope everything is going to work out well, and we're 
sure that it will, but when we get there we'll really find out.
    It's great to do this. This is extremely important, for us 
to be out across the country, talking to people that live in 
places that have needs, so that we can hear them firsthand. I 
would like to take the opportunity to introduce somebody that's 
not on the panel, but is hear today: Rich Martinko.
    Rich, why don't you raise your hand over there? See, Mr. 
Chairman, that's Steve's father. Rich is now the Director of 
the University of Toledo's Inter-Modal Transportation 
Institute, and the university's transportation center, which is 
one of 60 designated by the Federal Department of 
Transportation.
    He served 22 years at ODOT. His career culminated as the 
assistant director of highway operations for ODOT. So we're 
pleased that he's here today, and most importantly he's the 
father of my deputy chief of staff, and my principal 
transportation advisor.
    So Steve, coming from a father who has transportation in 
his blood, myself--so Shuster/Martinko would make a pretty good 
team, I think. Steve is definitely the smarter of the two of 
us, so I'm pleased that he calls his father occasionally, or 
his father calls him occasionally and tells him what Shuster's 
doing wrong, or what the Committee's doing wrong. I get the 
same from my father, so that's OK. We like that.
    But again, it's a pleasure to be here with my colleagues, 
and I'm looking forward to hearing the testimony today. So 
thank you very much, and I yield back.
    Mr. Mica. I wasn't going to tease Mr. Shuster at all, but 
he gave you that commentary on my road show, so I have to say 
it's good to see him today with his coat off but his shirt on.
    You have to keep a sense of humor with this job. But we are 
delighted to be here. And I want to also thank Jim Kolb, who is 
the staff director on the Democrats' side of the aisle, for 
being here. And I think he has some family in the area, so 
we're pleased to have his leadership. And my co-partner, who 
isn't with us today, Mr. Rahall, the gentleman from West 
Virginia.
    So with those introductions, we're pleased to go ahead, and 
now we'll recognize those on our panel. They've already been 
introduced. What I'd like you to do now--I know you're not 
going to like this. But if you have a written statement and you 
start reading it, I have a staffer and I see the Ohio--is it 
the highway patrol over there? And I would like the staffers 
and the patrol to come over and just take away your written 
statement.
    Now, what I want you to do is summarize your key points 
that are in there that you want this committee to take back. 
What we need to do in changing the law. What we need to do in 
changing the procedures that can make us do a better job for 
you.
    Without objection, all of your written testimony will be 
made part--this is an official hearing, and it will be made 
part of our hearing. It will be submitted.
    So what I want you to do is, again, have an exchange. That 
will be much more productive than you just sitting there 
reading a written statement. And I see poor Mr. Wray is 
shuffling through his papers.
    Really, the purpose of this is to elicit from you your top 
ideas and suggestions, recommendations to this committee. And 
don't tell me how bad things are. We know how bad things are as 
far as infrastructure. If you've got some,what we want are your 
specific suggestions on how we can do better.
    Poor Mr. Wray. But listen, this guy has been in the service 
of Ohio, and he's come back for another round. And I know he 
can tell us.
    The other thing too is, we brought on board an immediate 
past Secretary of Transportation from Florida, who I've worked 
with, and who's helped us craft some other legislation, 
Stephanie Kopelousos. And she's going to be working with a 
different, progressive secretary to have innovative ideas that 
can help us go through the law, go through the rules and 
regulations that don't make sense, and come up with innovative 
ideas.
    Mr. Wray, you are recognized. And just tell us, again, what 
you would change. And you can submit the rest of that for the 
record. You are recognized, sir.

  TESTIMONY OF HON. JERRY WRAY, DIRECTOR, OHIO DEPARTMENT OF 
  TRANSPORTATION; BRIAN BURGETT, PRESIDENT AND CEO, KOKOSING 
CONSTRUCTION CO.; BILL LOZIER, DEPUTY COUNTY ENGINEER, LICKING 
   COUNTY, OHIO; HON. CHRISTIANE W. SCHMENK, MAYOR, CITY OF 
  MARYSVILLE, OHIO; MARK POLICINSKI, EXECUTIVE DIRECTOR, OHIO-
    KENTUCKY-INDIANA REGIONAL COUNCIL OF GOVERNMENTS; NICK 
   GATTOZZI, VICE PRESIDENT OF GOVERNMENT ADVOCACY, GREATER 
 CLEVELAND PARTNERSHIP; KEITH TUTTLE, PRESIDENT, MOTOR CARRIER 
  SERVICE, INC.; AND BARRY FROMM, CHAIRMAN, US RAILCAR COMPANY

    Mr. Wray. Mr. Chairman, Distinguished Members, thank you 
and welcome to the great State of Ohio. My testimony just got a 
lot shorter. What would you like to see? First of all, we have 
problems in Ohio--and I'm sure that's true of lots of the 
Nation--in that we are fast approaching a time when we will not 
have enough State funds to match our allotted Federal funds.
    And the first thing that you can do to help us with that is 
change the Federal match from an 80/20 match, 80 percent 
Federal and 20 percent local, to 90 percent Federal and 10 
percent local. That would be our number one suggestion, number 
one recommendation.
    And that would not only help us, but it would help our 
local partners a great deal. In Ohio, we have home rule. We 
have elected county engineers. We're the only State in the 
Nation that has that.
    We have a lot of rural counties, and they have small staff. 
It is very difficult for them to use Federal money, even with 
the help of the Department of Transportation. There are 
counties in Ohio who have never replaced a bridge using Federal 
money, simply because of the onerous and complicated and 
bureaucratic process that it takes. This would go a long way to 
helping them match, number one, and I'm----
    Mr. Mica. Can you--I'm going to interrupt a little bit 
here. Can you outline for the committee, or do you have in your 
testimony, some of the onerous provisions that are at the 
Federal level that we could change? Any percentage. And if you 
don't want to do it publicly, could you provide it to the 
committee?
    Mr. Wray. The answer is I don't have it in my testimony, 
but yes we can provide it to the committee. And I suspect that 
others on this panel, including Mr. Lozier----
    Mr. Mica. You have two weeks to submit that. Any examples 
you can give us of what you can do. Because again, I don't know 
if we can get you the 90 percent. But what else can we do to 
get some of the unnecessary regulations, rules and things that 
you just talked about, particularly the small communities that 
don't have the institutional capability of dealing with the 
Federal bureaucracy?
    Mr. Wray. And I hope you can get us the 90 percent. I 
understand if you can't, and 89 percent would be fine. I don't 
have the details of the process outlined in my testimony, but 
we can certainly get that to you easily within two weeks.
    Mr. Mica. Just give us a few examples of this, or 
something.
    Mr. Wray. And basically, and in very understandable terms, 
this is why it's difficult for Morrow County, Ohio to take 
advantage of any Federal funds.
    And I should note, Mr. Chairman, that this Department of 
Transportation is committed to helping them. We have made it 
one of the centerpieces of our administration that we are going 
to try to help local governments make better use of the 
available dollars that are there. And we're committed that ODOT 
is not going to be a barrier, and we want you to help us make 
sure that these the Federal Government and USDOT is not a 
barrier.
    Another thing that would help us a lot and that we're 
interested in is innovative financing, and the ability, for 
example, for us to use our longitudinal right of way, and 
perhaps use that with private partners to create revenue for 
the State.
    As it is now, there are restrictions that are long and deep 
that prevent us from using our own right of way for revenue 
enhancement. And if there was a way that we could find to free 
us up to do that, we'd love to be able to do that. Another 
aspect of that is----
    Mr. Shuster. I'm going to interject, Mr. Wray. What would 
you do? What kinds of things would you do?
    Mr. Wray. Fibers, cell towers, advertising, whatever. 
Again, we're not going to compromise our transportation system 
in terms of safety, efficiency, and effectiveness. But to agree 
that we own property that can be leveraged, we'd like the 
freedom to do that.
    Mr. Shuster. Thank you.
    Mr. Mica. That's the kind of stuff we're looking for. Keep 
going, you're getting there. Anything else?
    Mr. Wray. Or rest areas, in Ohio and all over the country, 
were originally built through the interstate system, and we 
built the rest areas. We believe that those are properties that 
we could leverage also for revenue, for advertising. Or lease 
them out, allow them to become a private/public partnership.
    We don't have the freedom to do that now. We'd like to be 
given the freedom to deal with our rest areas and the property 
that we own, and to be able to try to leverage that property.
    A bigger picture concern is that, essentially across the 
country, in Ohio and nationally, we have funded our 
transportation system through the gas tax. And that has been a 
remarkable success story. It helped build the wealth that 
exists in this Nation, without a doubt.
    But that system is now out of date, and we need to be 
looking at innovative or new ways to fund transportation. In 
Ohio, consumption is leveling off. We are anticipating a little 
increase this year, but with the sluggish economy, essentially, 
consumption has provided us with level revenue. Construction 
inflation, on the other hand, is growing. So the cost of steel 
and concrete and asphalt is going up each year.
    We estimate in 2011 it will go up by 5.7 percent. You can 
see as those two lines converge that there's coming a time--and 
in our case, that time is very near, probably 2018 or sooner--
that we not only will not be able to match Federal funds, we 
will have a difficult time maintaining and preserving our 
existing system.
    And that is a must. It's a tremendous, enormous investment 
that we have made in Ohio--and that States have made across the 
country--in this system. It would be a crime to let it fall 
into disrepair even more than it already is.
    Mr. Mica. Mr. Wray, we're going to get back to you. Let's 
pick on Mr. Burgett next. And he has a big construction 
company. We'll save all the questions until we get through, or 
if somebody has something they have to pop in, they'll do that. 
But Mr. Burgett, you're next.
    Mr. Burgett. Thank you Chairman Mica, Honorable Members of 
the Congress. As Congressman Gibbs mentioned, our company is 
involved in all modes of transportation, from maritime through 
rail, bike paths and highways. But this morning I want to 
narrow my comments to highway-type construction.
    And I'm going to propose a couple of things that just kind 
of turn the whole apple cart upside-down. The first of those, 
it becomes apparent to most of us that there's not an appetite 
in Washington to provide the funding necessary to take care of 
our whole highway system out here, from what we've looked at in 
the past. And I think the approach needs to be changed.
    And I'm proposing that we narrow the Federal Government's 
role to the national highway system, and that their funding be 
limited to that, and that we turn the funding of the State 
highways and stuff back to the States. And the importance of 
this, even though the States right now say ``We don't have the 
funding,'' if they understand the division of responsibility--
which is unclear at this point, because we don't know how much 
funding will be able to come out of Washington from any one 
time--then they can take that, and focus on it, and move 
forward.
    The second apple cart that I would like to upset is the 
Federal Highway Administration. And I would propose that we 
change the role of the Federal Highway Administration to not be 
involved in the day-to-day business of the highway projects, 
but to give us the safety requirements, the overall concept of 
what they want in our national highway system. Stay out of the 
State, the county jurisdictions.
    And that we eliminate the offices in each State, and that 
we move to a regional national highway organization, similar to 
EPA. And that their role be of auditing the States on a 
periodic basis, such as maybe every three years. I think that 
we could eliminate a lot of overhead, and I think we can also 
shorten the process for construction projects.
    The third area that I'd like to touch on is that of 3Ps. I 
believe that 3Ps have a place, but it's a very limited role. 
And I believe it's the most expensive way of funding our 
infrastructure, our transportation system, and that if there's 
any other way of doing it, we should take that approach.
    The example I'd like to throw out is the Ohio Turnpike. In 
the Ohio Turnpike, you pay 6.2 cents a mile to travel on the 
Turnpike, plus you pay 2 and a half cents a mile in gas tax.
    And on any other highway in the State, we're paying 2 and a 
half cents for the gas tax. So consequently, it's more than 300 
percent, the cost per mile to travel on the Turnpike versus an 
Interstate highway. And I think we need to find other 
approaches, other than 3Ps, where we can.
    Mr. Mica. Excellent comments. Thank you for those comments. 
Mr. Lozier?
    Mr. Lozier. Thank you, Chairman Mica. I do have sample 
projects, that you asked----
    Mr. Mica. Just a clarification on public/private 
partnerships for members of the audience who may not be 
familiar with it so much. Public/private are what he's 
referring to, just for clarification. Mr. Lozier?
    Mr. Lozier. Thank you, Chairman Mica. I'm going to start by 
tagging onto Director Wray's testimony. And you did ask the 
question if we had specific examples. I assume that you have my 
testimony and the attachments to it, because I want to draw 
your attention to the photo that's shown in exhibit 1.
    I spared everybody the drama from actually bringing the 
paper in here, but I have a photo of this. We see two projects 
on my drafting board, back in my office. The project on the 
left side of the straight edge there represents the paper we 
generated for a Federal project.
    We've been after this project since '03. We've spent design 
costs of $1.4 million so far. We expect to spend another $1 
million, and the construction costs estimate of this project is 
$12.2 million.
    The project that is similar, on the right side of the 
straight edge there, is funded through a program called the 
Ohio Public Works Commission. We're freed up from a lot of the 
regulation and a lot of the design standards. We 
conceptualized, designed, and constructed this project in a 
year, and we did it for under $600,000.
    Now, the argument that I hear when I bring this example up 
is I'm trying to compare apples to oranges.
    Ms. Schmidt. Excuse me. We don't have the attachments.
    Mr. Lozier. You don't. There was a packet of attachments. I 
can present them to you, if you'd like. It's on page two of 
that packet.
    I can continue before you see the photo. I think you get 
the idea that what has driven this, in my opinion, are the 
AASHTO design standards, which are utilized by the FHWA and the 
DOTs. This project is requiring 120 foot roadway width, and we 
think all we need is a 60 to 80 foot roadway width.
    This is creating the usual suspect cost drivers, like 
environmental, excessive right of way due to technical 
requirements, utility relocations. And that's ironically all 
the things that we're instructed to avoid by the FHWA.
    Again, there's another argument that I hear all the time: 
``If we're going to do a project, let's do it the right way.''
    Unfortunately, that's a recipe for immobility. We have a 
little local road widening project that we've been after for 
eight years here. We can't--our roads have evolved from wagon 
paths, and now we're trying to improve them all at one time 
with these successive design standards.
    How'd it get this way? I believe that FHWA and ODOT 
oversight has led to those two agencies managing risk the same 
for local projects as they do for their own projects. I don't 
think that local governments have the same exposure to risk.
    And what can we do about it? We have several suggestions. 
I'm representing today the National Association of County 
Engineers and County Officials, as well as the County 
Engineers' Association of Ohio.
    In the testimony that I've provided, they have specific 
language. They are in agreement with what my testimony is 
today. But basically, the big two things are that we need to 
make an allowance for local public agencies, governing 
authorities like the County Engineers' Association, to have 
their own design standards.
    They need to be turned over to us. These projects need to 
be turned over to us, and let us take responsibility for the 
risk. We aren't scared of the risk. We can manage the risk.
    I think that if this happens, it could lead to an infusion 
of construction projects like never before imagined. And this 
would be good for contractors, consultants, and suppliers of 
all sizes. And it could happen very quickly.
    I guess that's the end of my testimony.
    Mr. Mica. Do you have the specific language you're 
recommending?
    Mr. Lozier. I do. In my testimony there, there are five 
specific things. The first two, essentially, are handing down 
oversight authority to local governments, or to their managing 
authorities like the County Engineers' Association.
    I also think, as you go through the Federal bill--we know 
there's inconsistencies in other States, and that we should 
identify them. And during the course of the bill, there should 
be continual improvement measures taken, and the DOTs and local 
agencies should be a part of that.
    I happen to know that there are design standards that are 
different than the way that Ohio's FHWA offices interpret the 
design standards for projects. I also think we need to 
strengthen technology transfer and other training programs.
    In the long term, we need regulatory reform. A lot of what 
we have presented to you is assistance in getting through the 
process. I don't think that's good enough. I think that's a 
temporary fix. I think, in the end, we need regulatory reform.
    And that concludes my testimony.
    Mr. Mica. Thank you. We'll turn next to Ms. Schmenk.
    Ms. Schmenk. Thank you, and thank you for allowing me to be 
here today. I would first beg indulgence. I promise I will not 
read, but I would like to kind of set the stage for my 
testimony, because I'm talking from a different capacity than 
others on the panel.
    I'm talking as a small town mayor. A small town of about 
20,000 located northwest of here, about 30 miles. And I want to 
lay the groundwork for really how everything that our panel is 
talking about today affects us as users of the system.
    Marysville is in Union County, and that has been the third-
fastest growing county in Ohio since 1990. For a small town, 
Marysville has a very rich employment base. We're very lucky to 
have great employers, like the Scotts Miracle-Gro company.
    I'm a part time mayor, but I have also worked for Scotts 
Miracle-Gro for 17 years. And Scotts is there in Marysville 
because of good transportation and good infrastructure. We're 
also home to many other good industries, like Nestle R&D, and 
other great companies. But the big one that we all hear about, 
just beyond our borders, is Honda, Honda R&D, Honda of America 
Manufacturing.
    And Honda is key to Ohio's future. I think Honda is key to 
our Nation's future, because it has done such great things in 
our country. Honda alone employs about 13,000 employees near 
Marysville. And when you factor in all of its suppliers, it's 
responsible for probably 130,000 employees in Ohio.
    The history of Marysville and the history of Honda. One of 
the main reasons Honda has been successful has been the good 
infrastructure that was built. 30 years ago, our State invested 
close to about $75 million to widen US Route 33, which leads 
from Columbus out to Honda.
    The payback has been tremendous. Honda has conservatively 
put back over $7 billion into Ohio since 1979, and that doesn't 
count the millions of dollars that have helped communities like 
mine in payroll taxes and other taxes returned to our local 
economy.
    So when we think of the impact of good infrastructure, it's 
key to my town's success. It's key to our county's success. I 
think it's key to Ohio's success. Honda, Scotts, and other 
manufacturers rely on a lot of logistics systems. One is called 
Just In Time delivery. If infrastructure is not working well, 
it delays everything for them, costs them millions of dollars, 
costs our economy millions of dollars.
    We have a little project right now, which my Congressman, 
Senator Stivers, referred to. And that is the intersection of 
US Route 33 and I-270, which circles Columbus. It is a highly 
congested interchange, and it is failing right now.
    And every day when there is backup, it causes problems for 
Scotts, for Honda, for all of those thousands of employees. 
Right now, we've requested both Federal and State funding. 
Conservatively, it looks like if we're lucky--and it's in 
jeopardy. But if we're lucky, we won't be able to even start 
that project until 2017. That will cost jobs. That will cost 
our economy, I think, in the millions of dollars.
    So I will jump to what I think, as a user of a small town, 
and as a person who sees the direct connection between good 
infrastructure and jobs, are some practical suggestions. 
First--I'll probably get some boos on this--I'm a firm believer 
that not all earmarks are bad. I think if you can show a direct 
connection between jobs and the project, it can really be a 
good use of our tax dollars.
    What I would love to see, though, is a streamlining of the 
request forms, the appropriations request forms. Director Wray 
mentioned that small communities don't have the bureaucracies 
to do those kinds of applications. We don't have a grant writer 
in our small town, so when our different Members of Congress 
request different forms, different attachments, it really is a 
detriment to us.
    I would love to see a direct nexus between any kind of 
funding and jobs. We need to see that economic difference that 
it can make. Timing needs to be addressed. Somehow, we need to 
shorten the project. Because my little project, if it doesn't 
start until 2017, we're going to lose jobs in the State of 
Ohio.
    Someone has already mentioned the 3Ps. I'd like to see 
collaboration rewarded. My work in the private sector over the 
years--I know how public/private partnerships can get things 
done, and I'd like to see rewards given for those.
    And I think Director Wray also mentioned more creative 
funding techniques. We definitely need to see something 
creative, like transportation tax credit bonds, or other ways 
to get funding.
    Thank you very much for listening. Again, just to 
summarize, I think good infrastructure needs jobs. And it's 
critical to our State and our Nation.
    Mr. Mica. Thank you. Mr. Policinski?
    Mr. Policinski. Thank you, Mr. Chairman. And thank you 
Congresswoman Schmidt for your kind remarks. I want to thank 
the people who preceded me in the panel for bringing up so many 
good ideas on streamlining.
    I agree with them, particularly on the idea of letting 
States and locals have more authority over their projects that 
don't fall on Interstates, and also the idea that FHA should be 
in an oversight role in that regard.
    I'm also very happy to hear, Mr. Chairman, that you state 
that the idea of streamlining is so ingrained as you put 
together the new bill. To me, streamlining is probably the most 
important thing we can do, even as important as funding.
    I think a couple of things that I'd just like to mention 
when it comes to streamlining is, in the planning process, we 
go through environmental review. We identify the environmental 
problems that could exist and impacts. Once that's done, I 
don't think it's absolutely necessary to revisit them. And that 
would reduce, I think, I lot of the delay that takes place.
    As far as my testimony goes, having gone down to a place 
taken by others, when it comes to getting money into the 
system, OKI has been pushing for four years an idea called 
regional infrastructure improvement zones. This is a change in 
the tax law, which would allow private corporations and 
individuals who make contributions to build public goods a tax 
deduction.
    Under current law, such a tax deduction is allowed, but 
only if there is no benefit to the individual or the 
corporation. The establishment of a RIIZ would take away that 
distinction, which we find totally arbitrary. What RIIZes would 
do is, they woud unlock private dollars to put into local 
match.
    It's already been mentioned, rural communities, many 
communities even in metropolitan areas like Cincinnati, good 
projects, already approved by the jurisdictions, already in 
these steps, cannot go forward because there is not a local 
match.
    Here we would have an opportunity where the private sector 
could step forward and say ``Listen, this project, which has 
already been approved by you, which is already part of the 
community's effort to develop economically, is also important 
to us as business votes. And we're willing to put money into 
it.''
    That would give them the local match, and that would allow 
the project to go forward. I think that it's amazing, as we've 
been pushing this idea for four years and we hope to have it 
introduced on the House side in the spring, that a number of 
businesspeople have come up and said ``I'm very interested in 
doing this.''
    When we talked to government and elected officials, they 
had a number of examples where they think that this would be 
beneficial. So when we look at this problem, where you don't 
have enough money and you have too much need, we have to find 
new sources of funding. And I think RIIZes provide one of those 
sources. It's a way to tap into the private sector dollars.
    Again, Mr. Chairman, much of what I have to say on 
streamlining has been covered by others. It's also in the 
written testimony, and so I will yield the rest of my time to 
my distinguished colleague from Cleveland.
    Mr. Mica. Thank you. I will recognize Mr. Gattozzi.
    Mr. Gattozzi. Thank you, Mr. Chairman. My name's Nick 
Gattozzi. I represent the Greater Cleveland Partnership, a 
regional chamber of commerce in Cleveland. I've been asked to 
talk about a little variation on the public/private 
partnership.
    We work with a group called BUGC, Build Up Greater 
Cleveland. It's an organization founded back in 1983. The idea 
was to prioritize transportation infrastructure projects in 
northeast Ohio. Obviously, back then we had challenges in the 
Cleveland area, and as the community came together with various 
projects, the idea was how do you prioritize those in a way 
that's--weigh those projects against economic development.
    So that we weren't just repaving roads, but those roads 
were going to places where jobs were being created, economic 
development. I think you've heard very similar comments, 
especially from the mayor, how important transportation 
infrastructure is.
    It creates jobs. It's the key driver to economic group. 
With Build Up Greater Cleveland, the city of Cleveland is 
involved. The county engineer, the port authority, our regional 
sewer district, the regional transit authority. So all the 
stakeholders are there. ODOT is a stakeholder as well.
    And so we make the case of why projects are important, 
because of the development that connects to the rest of the 
community and the region. And we actually rate and prioritize 
those projects.
    So our folks come in, they make presentations on their 
individual projects, and then we as a group take off our 
individual hats and say ``How does this impact the region? 
Where are we going to get the best economic bang for our 
buck?''
    We've extended that model to a twelve-state coalition, the 
Great Lakes Metro Chambers Coalition. It includes the States of 
New York, Pennsylvania, Ohio, West Virginia, Kentucky, 
Michigan, Indiana, Illinois, Missouri, Iowa, Wisconsin, and 
Minnesota.
    When you combine those twelve States plus Ontario and 
Quebec, you're looking at the third-largest economy in the 
world in terms of GDP. It's significant. Our friends in 
Cincinnati are involved, and when you see how things like the 
Brent Spence Bridge impact our manufacturers--the mayor talked 
about Just In Time in Marysville.
    We have those same things. We need to get our goods through 
the system internally, so that we can get them exported out. 
When you look at this region, we are 33 percent of the Nation's 
population, 32 percent of the Nation's GDP, 30 percent of our 
merchandise exports, and 28 percent of those patents.
    And in order to make the things that we do so well in the 
midwest, we need to move those little parts to make bigger 
parts, and then be able to get them outside the region. Not 
only to the rest of the country, but to the world.
    And so the Metro Chambers is focused on those trade 
corridors, as we call them. Because the Brent Spence Bridge 
matters. Because the Crossings at Detroit and Buffalo matter. 
And those road miles in between, so that the trucks can carry 
that equipment, those supplies, those purchases, efficiently, 
safely, through the system. Because that makes us more 
competitive as a region.
    From a recommendation, I think all we have to do is look at 
your report, when you talk about your national strategic 
transportation plan, Mr. Chairman, and getting that regional 
input. Looking at regional zones. How can the regions impact to 
make the case that we're not just paving roads, but there are 
jobs associated with those investments of Federal dollars, when 
combined with the local and with the State dollars?
    Because that's what creates jobs. That's what drives the 
economy. If we can't get the goods and services in and out, 
we're going to strangle the economy. I yield back my time.
    Mr. Mica. I'd like to thank the gentleman. And let me 
recognize Mr. Tuttle now.
    Mr. Tuttle. Thank you, Mr. Chairman. I come to you as the 
owner of a small business in Northwood, just on the east side 
of Toledo. We're just north of the Ohio Turnpike, and at the 
intersection of 80 and 90, around 75. We have about 125 proud 
employees, and we run 90 over-the-road trucks, and a couple 
hundred trailers.
    We've had a somewhat brutal economy in the last three to 
four years, and yes I did have a prepared talk. I'm here 
representing my drivers, my employees, and also the American 
Trucking Association.
    Let's talk about congestion. And I deeply respect what the 
mayor of Marysville said. We have an operation that's not big, 
but our trucks run a lot between northwest Ohio and Chicago, 
going west. And our trucks operate a lot into eastern 
Pennsylvania and New Jersey.
    And specifically congestion--I will tell you that when I 
got into this business and I started with just a couple trucks 
after getting out of college, and when I got started in this 
business 25 or 30 years ago, every one of our customers, from 
General Motors to American National Cans, to Campbell's Soup, 
they'd always carry weeks of inventory.
    And that has gone from weeks, to days, to in most cases 
hours. The mayor eloquently pointed that out at Honda, and at 
these plants, it's not only down to hours' worth of inventory. 
If you deliver late, you as a carrier are penalized, in some 
cases severely, for not getting there.
    Our trucks, if you realize, Mr. Chairman, right now we can 
operate 11 hours in a 24 hour cycle, then they have to take a 
break, and so forth. When we go to Chicago, we are limited to 
the south side of Chicago, the eastern suburbs of Chicago, and 
northwest Ohio.
    Because of congestion, we cannot deliver towards the 
airport and get back to northwest Ohio in the same day. With 
congestion, we cannot deliver any farther than the eastern part 
of Philadelphia or just into New Jersey under the current hours 
of service regulations.
    I'm asking that--and most of you in this room might think 
this is a crazy idea--but as an industry we support a diesel 
fuel tax increase, if it is directed to efficient projects that 
help eliminate congestion.
    And 80 percent of all goods in this country are moved by 
truck. Yes, there is a need for a good inter-modal system. 
Almost all freight is eventually by truck. And in most cases--
80 percent of the communities in this country are exclusively 
served by truck.
    We are willing to pay more for a diesel fuel tax increase. 
And I realize, I absolutely realize that that's something that 
we're probably not going to get to happen in this environment 
right now. But I'm not sure that we can afford luxuries like 
museums and other extravagant items that take away from the 
efficient movement of goods and services in this country.
    So I'm not going to talk about much else. You have my 
testimony. But we do support that. We do support anything that 
eliminates congestion, as the economic recovery--and these are 
just a couple notes that I've taken this morning--it moves on 
trucks.
    And as I said about the inventory levels, increased 
congestion means less productivity, less efficiency, and higher 
costs that are basically forwarded on to consumers. Thank you 
very much for allowing me to speak.
    Mr. Mica. Thank you. And I'll recognize Mr. Fromm next.
    Mr. Fromm. Good morning, Chairman Mica and Members of the 
Committee. I also want to recognize Congressman Stivers, who 
I'm proud to have as our district representative.
    I run a company called US Railcar Company that's based 
right here in Columbus, Ohio. And I have several messages I 
want to make, after several years of working very hard to try 
to accomplish the American dream, starting a business in an 
area that is highly dominated by foreign manufacturers.
    That's why this next transportation authorization bill is 
so important to us, and is so important to the citizens of this 
country. I am an entrepeneur. I'm a risk taker. I put many 
millions into this enterprise.
    And I'm a concerned American citizen who pays a lot of 
attention to the advancements in transportation, and all the 
benefits that can come from passenger rail, insisting on doing 
the right sizing, the right type of equipment. Not necessarily 
high-speed for every corridor, but low-speed and medium-speed, 
different types of vehicles on different types of corridors.
    I think it's critical that we have opportunities to 
increase American manufacturing jobs, so that we get a return 
on the investment, and we see mobility provided to the greatest 
extent to our workforce. And then we'll see economic 
development. It's all possible with the growth of a passenger 
rail system in this country.
    Did you know that Ohio has the third-largest concentration 
of rail tracks in America? Illinois has the largest 
concentration. Did you know that you could connect every 
college and every university in this State, somehow, to a 
passenger rail system that already exists?
    First, the key to the success of the program, as with any 
other public/private partnership program, is that you have to 
draw entrepeneurs to take these kinds of risks and enter into 
these types of partnerships, and to drive transportation 
investment. It represents anywhere between 24 and 28 percent of 
our total spending. That's how critical transportation is.
    In 2009, I led a group of investors, friends and family, 
who put up capital and acquired the only American manufacturer 
of passenger railcars known as Diesel Multiple Units. It's a 
special type of car that runs back and forth. It's a self-
propelled vehicle that has coaches and power cars.
    And it was invented by a gentleman in Colorado, who created 
all that technology, and kept it alive, and who has proven to 
the Federal Railroad Administration so as to be operating on 
three railroads, so it's safe and sound.
    And to bring this back into service in North America, there 
are presently three districts where these DMUs are in service 
in the United States today. We invested this money because we 
feel that passenger rail is a critical part of America's 
transportation system.
    But Americans and American know-how must be a part of this. 
You can't have this all dominated by foreign manufacturers. And 
they're huge. The barriers to entry in this are incredibly 
high. And we need to compete against--and we are competing 
against these well funded organizations.
    The bill must find a way to support our ability, all 
Amercian companies that are suppliers and manufacturers in this 
industry, to re-enter and build opportunities in America, for 
Americans. Our company is ready to contribute to the growth of 
that, and we recognize that there's an opportunity, if this is 
addressed properly.
    The second issue is having the necessary resources and 
incentives at the Federal, State, and local levels to change 
the way the deals get done. I'm thinking of concepts like value 
capture here, where you can obtain value from development and 
incremental values from real estate appreciation, and tax those 
things in transportation districts.
    It can't be all done in a fare box. It has to be done 
through other means. And we all know studies show on 
transportation-oriented development districts that use value 
capture are incredible. We should capture that.
    We need to determine the goals and find ways to erase, 
rather than create, obstacles in the path. Because time is 
money. The private sector's good at getting things done, and 
the public sector's good at protecting the public sector and 
the taxpayer dollars. Together, we can get this accomplished.
    That's why we work together. We have an efficient, a 
timely, and a legal way to get this all accomplished. We need 
to reduce the risk, but we need to be market-driven. This 
economy has to be, not just in transportation but in all 
aspects of our economy.
    We have to seize upon economic development opportunities, 
and to allow them not to grow stale because of strong 
regulations that clamp things down, being preoccupied with the 
process rather than the goal.
    The third concept I have is that investment in passenger 
rail, and U.S.-based and U.S.-owned railcar producers will 
provide multiple benefits to this country. We have a mobile 
workforce. We have job growth. Those are accepted goals for all 
of us.
    Our vehicle, that Diesel Multiple Unit, has been designed 
to go on freight tracks today. And they are on freight tracks 
today. It doesn't have to be on a high-speed rail system that 
costs substantially more money. We can efficiently move people 
from spot to spot throughout the United States. Our next 
generation of cars will be going beyond 70 miles per hour, to 
the 110 category.
    For those of us that invest and risk our own money in 
America, I'm asking you to please recognize how important this 
is for America's future. We could foster the rebirth of this 
once-proud U.S. industry. We dominated the world in this field, 
and we don't today.
    Thank you very much.
    Mr. Mica. Thank you. Let's go right into questions. And I'm 
going to ask Ms. Schmidt if she would like to do the first 
round of questions.
    Ms. Schmidt. Thank you, Mr. Chairman. And I have questions 
for Mr. Wray separately from Mr. Lozier, Mr. Policinski, Mr. 
Tuttle, and if I get time, Mr. Fromm.
    Mr. Wray, when you talked about revenue enhancements and 
rest stops--and we all know that the rest stops throughout the 
country, but especially in Ohio are at or greater than 
capacity.
    Mr. Tuttle talked about drive time for drivers, they have 
to have so much time off the road. And as I drive down 71 or 75 
I see the trucks bleeding off onto the highway. When you talk 
about leasing, would you then use that as an opportunity to 
build better road stops for the truckers? I mean, what was your 
vision of that?
    Mr. Wray. As a revenue enhancement, sure. But obviously--
when I was here before, this was an issue. And what they 
determined was that we couldn't build them big enough, that no 
matter how large they were, they were full of trucks in the 
evening.
    And it's a real problem, because people are pulling off the 
road to sleep. If they get on the side of the road and not in 
the rest area, the patrol comes along and says ``You've got to 
move.''
    Well, you're telling a guy who says ``I need to sleep'' 
that he's got to drive. So it's a very difficult issue. I would 
hope that we would be able to address that at the same time 
that we were providing the revenue enhancement. I understand 
the difficulty of the issue.
    Ms. Schmidt. Thank you. And Mr. Lozier, when you talked 
about, and when you showed us in your testimony, your graph, 
one of the things I wanted to point out to you was that a few 
years ago, when I first got this job, I inherited a project 
called Fog Road in Pike and Scioto Counties that my good 
predecessor, Rob Portman, got funding for.
    But the Federal Highway Administration was bogging it down 
to the point that we actually found a way to take money that 
was given and move it over to ODOT, and have the road built in 
a year. Because it needed less capacity than what the FHA 
wanted.
    And what I would like from you is if you could give this 
committee specifics of what that cost is in your case on these 
projects, that will really help us when we craft this bill.
    Mr. Lozier. For this?
    Ms. Schmidt. This or any other project. Or anyone else.
    Mr. Lozier. I have boiled this down to design standards. 
Because the roadway, the footprint of the project drives all 
these other effects. We're instructed to avoid environmental 
impacts, but on the design side the shoulder widths, the lane 
widths, slopes--and we have a new environmental commitment to 
make our ditches, the bottoms of them five feet wide so as to 
slow the water down in accordance with NPDES, the Clean Water 
Act, basically.
    In every case, on these roadway widening projects, it's the 
width. It's the footprint. When we did all of our own projects 
with our own money, we used our common sense to avoid these 
things as best we can. If we see that we're going to impact 
utilities, for example, which are very costly--they control 
timeline like nobody's business, because we have to coordinate 
with private utility companies--it's a very difficult thing.
    We avoid it. Our instincts tell us to avoid it. Again, I 
appreciate the fact that these design standards are tested by 
the AASHTO. There's a lot of data telling us why we do this.
    But on the other hand, I had one particular project in 
Licking County where we were trying to use Federal money. It 
has 1500 ADT. And the typical section, again, is 120 feet wide. 
Now, as elected officials, we have people saying ``What? What 
are you doing? Why are you making this so wide? All we need is 
a little bit of recovery width on our shoulders.''
    Well, we wave the design standards in front of them. We 
can't really do that. People don't understand that it's not a 
common sense approach.
    Ms. Schmidt. People like common sense. If you could send us 
any and all information on that, that would be really helpful.
    Mr. Lozier. Can I make one point? I want to say that we are 
very optimistic with Jerry Wray. Since Jerry Wray's arrived, 
I'm very confident that they're going to help us through this. 
But there needs to be enabling language in the Federal bill, to 
free them up to free us up.
    Ms. Schmidt. And that's what I'd like you to help us with, 
sir. Thank you very much.
    Mr. Policinski, I love your idea about regional government 
improvement zones. You actually came to my office with that 
suggestion, and you said that you were working on it. Have you 
worked with any Member of Congress for some language, probably 
in Ways and Means, regarding this? And where are you now?
    Mr. Policinski. First of all, Congresswoman, could I just 
say, Chairman Mica, will you please make sure that the Brent 
Spence Bridge moves forward? Because if you think that she's 
tough on you, Mr. Chairman, how do you think she is when it 
comes to the little old director of little old OKI? Yes, we're 
working with Geoff Davis. Very closely with Jeff.
    We've also had interest from Mr. Tiberi's office. Actually, 
Mr. Blumenauer has expressed interest. So we're working very 
closely. We look for introduction. We had a little hiccup at 
the end of last session. We were planning to introduce then, 
but we're working very closely and we anticipate that there'll 
be introduction in the spring.
    Ms. Schmidt. Thank you very much. And Mr. Tuttle, when you 
talked about the 11 hour road rule for trucks, one of the 
things that I wanted to ask you was, did you think that there 
should be some flexibility in those hours of service?
    I know sometimes when the person is sitting in the cab and 
they're waiting and waiting and waiting to pick up a delivery, 
that that counts against them. And so if they're two or three 
hours waiting for the delivery, that counts as road time.
    And should we find a way to make sure that they're still 
safe on the road, but look at time on the road in a different 
way? Your thoughts, because you want to make sure they're safe.
    Mr. Tuttle. It's very ironic that you bring that up, and I 
appreciate your bringing that up. In fact, there is rulemaking 
before the Federal Motor Carrier Safety Administration right 
now that would actually reduce our allowable time to 10 hours 
per day.
    And we consider that----
    Ms. Schmidt. More draconian.
    Mr. Tuttle. Thank you very much. As an industry, our safety 
record in the last couple of years has been better--we are now 
as safe as it has been since it's been recorded in the last 50 
years. Clearly 80 percent of accidents involving cars and 
trucks are the fault of the car driver.
    Without getting into all the statistics, it is very 
inflexible right now. We do not have a way to reach out to 
those shippers and say ``You're going to have to wait for two 
or three hours.'' We do not have flexible sleeper berth times.
    And that's reducing it from 11 hours to 10 hours, which is 
rulemaking that's in the process right now, and they're also 
talking about--it's also ironic we talked about the lack of 
parking spaces. In that rulemaking, there's also a rule that 
instead of 34 hour reset, which our drivers have to take 
approximately once a week, without getting into too much 
detail, the new rulemaking says that you have to take 
consecutive breaks between midnight and 8:00 in the morning.
    If two of my trucks, one gets in at 11:00 on Friday night, 
the other one gets in at 2:00 on Saturday morning, three hours 
difference, the one driver can return to service on Sunday 
morning, as it is right now, with a very safe industry. The 
other driver, who gets in three hours later, if the rules that 
are in rulemaking right now go into effect, that driver cannot 
return to service until Monday morning. So we're going from a 
system that appears to be working, that we have very 
flexibility, to an even worse system. But thank you very much 
for the question.
    Ms. Schmidt. Thank you very much, and I see that my time is 
out.
    Mr. Mica. We'll get back to you. Mr. Shuster?
    Mr. Shuster. I'll continue along this line of questioning. 
I was going to ask the same types of questions Ms. Schmidt was.
    I had a trucking company tell me that it's about $5,000, 
$5,500 per driver. That's what this will cost if they change 
those hours of service. I was just wondering if you had any--if 
you could give that to us today, that would be great.
    Mr. Tuttle. I try to run our own trucking company. This 
issue is so important to us that I was actually--I took a 
couple of days of my time two weeks ago, and when I was in 
Washington, DC, it is a huge issue that will hurt productivity, 
and will hurt my drivers in their pocketbooks. I appreciate 
both of you bringing this up.
    Mr. Shuster. If you could come up with a number, that would 
be helpful.
    Mr. Tuttle. I can see about a 20 percent loss in 
productivity for our drivers.
    Mr. Mica. Thank you, gentlemen. Let me yield to another 
member of our committee, the gentleman also from Ohio, Mr. 
Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman. I'd like to start with 
Director Wray. I'm really intrigued by your terms about the 
innovative financing, and the first question that I think 
through that--with broadband or whatever, I think you mentioned 
something about that.
    My first thought is that mostly it might be State laws. I 
might be wrong about that, but it's my first thought. Or is 
there Federal restrictions when you use Federal money to do 
improvements to highways and stuff? When it's used to do that? 
Or is it State laws.
    Mr. Wray. The start of the problem is that if you use 
Federal or if you have used Federal money, then it's the 
Federal regulations that control it.
    There may be some considerations with the State law, but 
I'm sure we can deal with those much easier than we can with 
the Federal regulations. As it is now, there's a lot of 
restrictions, but the basic answer is no.
    Mr. Gibbs. So I guess I would look for specific examples of 
how you would want to change that. What would give you the 
optimal flexibility, especially when we're trying to get some 
more broadband or fiber laid, I think that makes a lot of 
sense.
    Mr. Lozier, a question Congresswoman Schmidt touched on a 
little bit, but I know in our discussions we talked about the 
right of way issue, and this project in Licking County. I guess 
we've got a choice before the panel, where the restrictions 
that came to you, but they didn't come from the State as much.
    Because if you look at State Road 37, it has very little 
shoulder. And the road you're talking about, you have to put in 
a shoulder similar to what's on your State highway system, I 
belive. And yet by the right of way, the Federal dollars really 
become diluted to such a point there----
    Mr. Lozier. Congressman Gibbs, I believe you're talking an 
example where I put my friends at ODOT on the spot. And when we 
have these projects using Federal funds, where we're trying to 
widen the local road, that we have to increase the local roads 
to 10 foot shoulders and flat slopes, and all that sort of 
thing.
    And my question to them is, we have State routes in Licking 
County with traffic counts that well exceed that amount, and 
the crash rates are much higher. Why have they not been 
improved to these standards?
    And tongue in cheek, I know the answer to that is, I 
believe that when they do improvement and maintenance projects, 
they're also using State money, I think, that avoids the 
triggers of the Federal money.
    And this is another issue, that Federal funds--and I'm 
going to speak in general terms--aren't allowed for maintenance 
projects. And this is another issue that we've addressed in our 
written testimony, and perhaps ODOT would be bettter to address 
this.
    But if the Federal money was made more flexible for use by 
ODOT in maintenance activities, it might free up more of the 
State money for local governments. It would have a domino 
effect that we could possibly be the benefactor. Again, I'm way 
out there, speaking for them. But in general, I see that if--to 
answer your question, I believe the reason that that happens is 
because improvement projects on State routes have been done 
with State money, where----
    Mr. Gibbs. I'm going to throw that back to the director and 
have him respond to that.
    Mr. Wray. Congressman Gibbs, he's exactly right. And we are 
aware of it. We actually have to have a legislative change in 
Ohio to allow us to spend State-only dollars on the system. And 
there are a lot of complications going with that, but we are 
prepared to pursue that, and we will be dealing with that with 
our Ohio legislature.
    Mr. Gibbs. Mr. Burgett, I want to open up to you. You 
dropped some out of box ideas, and like the chairman said, 
that's what we're looking for, on how to streamline the process 
and get things done.
    When I found out, 15 years ago, projects were going, and I 
know some projects were going on maybe a third of that 15 years 
before the first shovel of dirt got turned over, because of all 
the environmental impact studies, environmental studies.
    And the information sounded a little bit like what you 
actually go through when you start doing a real construction 
project, and the sound of that. So maybe we could figure out, 
see if we can paint a picture.
    Mr. Burgett. Actually, the issues that you're addressing 
there are taken care of before we typically get involved with 
the project. The biggest hang-ups that we end up facing ends up 
usually being utility relocations that aren't done timely.
    And one of the points that I didn't make that's in my 
written testimony is, I think we need some laws that would give 
the State and municipalities a little more power over utility 
relocations.
    We quite often see delay claims and additional costs 
associated with utilities not being relocated. We actually 
asphalt paved around an electric pole here in Franklin County, 
because it took over a year to get that pole moved. And then we 
had to come back, of course, and fill the hole when they 
finally moved the pole.
    Mr. Mica. Thank you, gentlemen. And let me recognize Mr. 
Shuster, also of the committee.
    Mr. Shuster. Thank you, Mr. Chairman. Mr. Fromm, if you 
could just--the three communities that you are operating your 
equipment in. Could you just tell us where they are?
    Mr. Fromm. Chairman Mica, Representative Shuster, we are--
the vehicles that are in service are, I believe, five double 
decker DMUs in Miami, running between there and West Palm 
Beach, very active. Chairman Mica was very instrumental in 
supporting that, and I appreciate it.
    Portland, Oregon, a very highly progressive transportation 
city. We have four single level cars running on the west line. 
And Alaska, which takes passengers to Denali mountain, where 
the transportation by rail is so critical.
    Mr. Shuster. And are you able to provide us with 
information on the operation costs, and how that site's going, 
so that we can----
    Mr. Fromm. It's interesting that you would bring that up. 
That's the reason we were so interested in it. It's one third 
more efficient from the standpoint of fuel, and about half as 
noisy, or not nearly as noisy as a traditional locomotive would 
be. So it's our conclusion that this unit is far less pollutive 
than a traditional locomotive would be.
    Mr. Shuster. Anything you could provide us with hard data 
on, that would be helpful to me. And I've ridden on your route 
into western Pennsylvania, and we went from Pittsburgh to 
Harrisburg, I believe it was. Or vice versa. Very comfortable 
ride, also, so I appreciate that.
    And when it comes again to the data, Mr. Tuttle, any way 
you can--you say 20 percent, but if we could see hard numbers--
because a couple of my trucking companies have come to me and 
said ``A decrease in hours of service is,'' and I got 5,000 
from one, 5,500 from another.
    And in Washington, those kinds of numbers are powerful, so 
that I can do the math for other Members of Congress and they 
can see what kind of dollars it's going to cost a small 
trucking company with 50 or 100 drivers, or a significant chunk 
of----
    Mr. Tuttle. I can tell you that a typical week for one of 
our drivers is 2,200 to 2,400 miles a week. And they make 
between $50,000 and $60,000 a year. It would be an $8,000 to 
$10,000 pay decrease.
    Mr. Shuster. How many drivers do you have, by the way?
    Mr. Tuttle. I employ 92 drivers, presently.
    Mr. Shuster. All right. Thank you. And Mr. Wray and Mr. 
Burgett, two questions came up that both of you were talking 
about.
    One, Mr. Wray was talking about utilizing the right of way 
to raise an issue of funds. One of the very difficult debates 
that occurs in Congress is billboards and advertising on 
roadways, you've got a pretty significant and powerful 
coalition that has limited that over the years. So when you say 
``adverstising dollars,'' what are you looking at? What ideas 
do you have?
    I know I've talked to a couple of firms that are--the idea 
of taking and beautifying landscaping along the highways with 
companies' logos to raise dollars. And I don't know if you know 
anything about that.
    Mr. Wray. Congressman Shuster, it could be what you just 
mentioned. Some sort of a public/private partnership to 
beautify the area, or to increase capacity. I mean, we're 
looking at all options.
    Mr. Tuttle. And the other thing Mr. Burgett brought up, and 
this is something I hear a lot, about focusing the dollars to 
highways. The grand compromise, in probably the 1970s or the 
1980s, was the transit/highway compromise in the urban/suburban 
areas.
    And I just wonder, what kind of debate would happen here in 
Ohio, with Cleveland and Cincinnati and Columbus saying ``Hold 
it a second.'' You could make the argument, and I think it's a 
valid argument, that if you put money into transit, you take 
cars off the roadway. So what kind of debate would occur here 
in Ohio between the urban, suburban, and rural areas?
    Mr. Burgett. Let me clarify. I'm talking about the portion 
of Federal dollars that presently go to highways, that those be 
focused only on the national highway system, which would bring 
clarity and let the rest of us know that we need, in our State 
or municipality, to find a budget for the others.
    As it is right now, we don't know what kind of a trickle we 
are going to get from the Federal Government. So I'm not 
talking about taking transit dollars for the national highway 
system. I'm only talking about eliminating which roads those 
funds go to. And that would also take care of Director Wray's 
90/10 deal.
    Mr. Wray. Congressman Shuster, if I may, and you probably 
know this, particularly with your background and your father's 
background. I used to quote him in speeches, often. If you go 
back far enough, there was a time when the highway system and 
the transportation system was funded at the State level with 
supplement from the feds.
    That has completely switched to the point now that the 
Federal Government is the driving factor and most of the money, 
and that's why I mentioned what I said. If Secretary LaHood's 
proposed budget that came out earlier this week becomes 
reality, Ohio will not have enough funds to match it at an 80/
20 match.
    So what Brian is talking about is providing more clarity. 
``This road is going to be financed by this fund by the Federal 
Government, not the State government. And the other is going to 
be financed the other way.'' So that we can get more clarity.
    And maybe it should be that some of our Interstate should 
be 100 percent Federal, with the understanding that we are not 
going to do all US routes, that we are not going to use Federal 
money on all US routes. So just providing more clarity would be 
very desirable in the reauthorization bill.
    Relative to the modal aspect of what happens in Ohio, if 
you're asking me would there be a debate, there would be a 
robust debate. And that would be a healthy thing. And the idea 
is for us to come up with a system that provides the most value 
for the investment of the people of Ohio.
    Mr. Shuster. I see my time is up. And I think it's going to 
be imperative in this new bill that we have clarity, and I'm 
sure the chairman is going to take it in that direction. But 
thank you very much.
    Mr. Mica. Thank you, gentlemen. I will recognize the 
Gentleman from Ohio, Mr. Stivers.
    Mr. Stivers. Thank you, Mr. Chairman. Again, thank you for 
including me even though I don't sit on the committee of 
jurisdiction. I was really taken by something that Director 
Wray said, as well as something that Mr. Fromm said, about 
economic development.
    One of my favorite movies is Blazing Saddles, and in that 
one of the characters says--the character named Mongo says it's 
all about ``where the choo-choo go.'' And the point of that is, 
economic development is driven by where our roads and our rails 
go.
    And Director Wray and Mr. Fromm both talked about how you 
can leverage those destinations and the change in economic 
value of those destinations. And I would like both of you to 
maybe expound upon that, and how that could be used to help 
finance our roads and bridges.
    Mr. Wray. Congressman Stivers, you are asking regarding 
public/private partnerships, or just the impact of 
transportation?
    Mr. Stivers. You talked about your rest areas. Obviously 
there's food at those rest areas. You can use those franchise 
things there like they do on the Turnpike, but I think you're 
not allowed to today because of Federal rules.
    You hopefully will be able to use your right of way for--
whether it's fiber or cell towers or other things you could put 
on that land. Land has value. Except the Federal Government 
tells you you can't use that land.
    Same thing with Mr. Fromm. Where the rails go, people go. 
And it changes the economic value of those destinations or 
those depots where the trains end up. And can we leverage that 
change of value through economic partnerships?
    I guess that's what I'm trying to get at. And if you could 
expound on how the Federal Government is actually not allowing 
you to leverage the value of both that land, your right of way, 
and the land of the rest stops--and frankly, where you take new 
interchanges and where you take new roads, there becomes a 
change in value, and you can leverage some of that.
    Mr. Wray. Congressman Stivers, obviously there is a 
partnership between the Federal Government, USDOT, and the 
State DOTs. And in a couple weeks I'm going to be going to a 
national meeting that's going to last two days, and that will 
be the topic of the full two days.
    So certainly we need a strong partner with the Federal 
Government in terms of what we provide in terms of 
transportation. Where we tend to part ways is that the State 
DOTs are typically looking for economic development and jobs, 
and looking for speed and value.
    FHWA tends to have a more--and I'm talking specifically 
here about highways, more of a national perspective. They talk 
a lot about the integrity of the main line, and the throughput 
of the traffic.
    And they will actually say to you, ``We are not really 
interested in economic development. That's your issue. Our job 
is to take care of the system.'' So at that level, we need more 
flexibility.
    Mr. Stivers. OK. There's about a minute and a half left.
    Mr. Wray. We need more flexibility. And at the same level, 
obviously, every project that comes to the DOT--and I mean 
every project that comes, whether it's transit, rail, highway, 
bridge, whatever it is--the sponsors and the people who want 
that project say that it's imperative for economic development. 
It is our job to decide.
    Mr. Stivers. Thank you. Mr. Fromm?
    Mr. Fromm. I guess I can't speak to this from 
transportation. I have never done this before in terms of 
economic development. But I have the largest land developments 
in Columbus and Cleveland, and they're both public/private 
partnerships. They're both on sites where the public could not 
solve these problems. They were inactive properties. Latent 
property.
    But with the private sector putting in their capital, and 
with us putting in our professional skills and labor--we're not 
looking for handouts. We're looking for public/private 
partnerships that are equal.
    And we were able to get Federal funds, and State funds, and 
county funds, and local funds, to where we had approximately 10 
different public and private parties investing in the Columbus 
project. It went from a negative asset that nobody would touch, 
a community that wouldn't develop at all, into one where it's 
now valued at over $20 million.
    Mr. Stivers. That's great. Thank you. And I only have about 
30 seconds left, and I want to get to--so that I think that 
really does illustrate that it works.
    Director Wray, you know, we talked about expedited 
timelines. And it's my understanding that timelines can go from 
about 15 years to about four years if you actually focus and 
the Federal Government gives you some flexibility. Just a yes 
or no, is that correct?
    Mr. Wray. Correct.
    Mr. Stivers. Thank you. Also on flexibility for Mr. Tuttle, 
because I'm really almost out of time, would it be helpful if 
you got more flexibility on defining what your drive time/road 
time was, that would allow your drivers--even if it was 11 
hours, if they were sitting in the cab or not in the cab 
because of the delivery, that made the time more flexible. 
Would that be helpful?
    Mr. Tuttle. Absolutely.
    Mr. Stivers. Thank you. And I think I'm out of time. Thank 
you for all the panelists. I'm sorry I didn't get to ask all 
the questions I wanted, but I appreciate you all being here 
today, and I'd like to thank the chairman for holding this 
hearing in Columbus, Ohio. Thank you.
    Mr. Mica. Thank you. Let me yield, if I may now, to the 
counsel for the minority side of the committee, to see if he 
has any questions.
    And if any of the Members have additional questions, or the 
minority side, everyone, of course, is welcome to submit 
questions to the panel. And the responses, if you cooperate 
with us, will also be made part of the record.
    Let me just ask a couple of closing questions. Mr. Burgett 
had some interesting proposals in terms of narrowing some of 
the highway programs and just focusing on the Interstate. Of 
course, it would probably get a lot of push-back. Everybody 
wants us to do every program. I think we started out with four 
core programs, and we're up to 100-plus.
    How do you think that's achievable? And again, how would 
you put that together? What are you thinking?
    Mr. Burgett. I appreciate the question. I think it has to 
be phased in over a multi-year timeframe. And one of my 
thoughts on that, with the recently proposed funding by 
Secretary LaHood, if that money could be spread out over a two 
to three year phase-in to allow us to give the States an 
opportunity to legislate how they're going to come up with this 
funding gap in the future--I think the whole key to this is the 
importance of certainty.
    And we have not been able to get certainty out of the 
Federal Government. If we just let people know, ``This is what 
we're going to take care of, the rest is your responsibility,'' 
then I have faith in our State governments that they will take 
that responsibility and come up with a method of funding. But 
we need to have that phase-in time.
    Mr. Mica. Let me say also that I like your idea about 
utilizing as much of the right of way, giving as much 
discretion as possible.
    Mr. Wray had suggestions--and let me just comment. You 
don't have to respond. But I think the chances of going to 90 
are slim to none. It's actually been headed in the opposite 
direction, as I'm sure you know.
    But I think several of you raised the question of 
stability. One reason I acquiesced to have the next extension 
was since there was no way I could do, just having taken the 
committee over, have a completed bill by March 4th. So while 
I'd like a shorter term piece of legislation to put pressure on 
Congress to move with the reauthorization, I did acquiesce to 
go to the end of the fiscal year, which was the request for 
some stability.
    Now, this will be our seventh extension, and each of those 
causes a period of uncertainty, inability to plan, and 
certainly inability to do any long-term commitment from the 
Federal Government, or initiation of significant projects.
    Mr. Lozier, great ideas. I'm going to take your language 
back. When we start crafting this, if you would also monitor 
the language that we're doing about, again, this whole process. 
Sometimes the staff on both sides of the aisle think of the way 
things are done now, and think we have to do this and that. I 
want to try to get them outside the box.
    We had reached an agreement with Mr. Oberstar, moving 
forward with this on expediting projects and speeding up 
projects, but I think we only reached the tip of the iceberg. 
And I think there are innovative ways--we'll look at your 
language and hopefully adopt some of that.
    Mayor, you cite a great example of a small community trying 
to dog it with the Federal Government, in just the last eight 
years since I got shafted in redistricting. My wife will be out 
here in a few minutes with soap and water.
    But I never had small, rural communities, and I got a whole 
new understanding of the institutional challenge that you all 
face. And it's really ironic that the small communities, rural 
or disadvantaged communities, are the least likely to be able 
to participate. We're going to try to improve that. And again, 
we want you to be with us in that process.
    Burgett wasn't as hot to trot on the PPPs, and I think we 
had some disagreement there. Do you want to tell me again what 
your problem was, and then a couple of you might have a 
solution.
    Mr. Burgett. We've looked at five different triple P 
projects over the last few years, none of which have been able 
to go forward because the dollars didn't work.
    Mr. Mica. Is there anything that we could have done to 
sweeten the pot, like maybe backed----
    Mr. Burgett. Let me give you an example here of how far the 
numbers are. A current project that exists out there--I won't 
name the State, but it's not Ohio. And we were the low bidder 
on a $200 million pricing.
    And the State had initially set that project up as 3P, 
couldn't get the finance on it. Decided to take it back and 
handle it through their toll authority----
    Mr. Mica. This is financing?
    Mr. Burgett. Yes. They decided to make a toll road through 
their existing turnpike. They did the numbers on it, and when 
they would sell the bonds, what they would cost and all this, 
they could get $50 million out of the bonds that would be paid 
back from the tolls over a 30-year period of time.
    Mr. Mica. And that leaves $150 million?
    Mr. Burgett. Right. They say they can start with bonds, but 
the numbers get worse. To put the tolling equipment in, the 
facilities to do the tolls, will cost $20 million. So now you 
get a net $30 million.
    And the numbers get worse. The tolls that would be charged 
to the traveling public across that amount to $10 million a 
year. So over 30 years, we're charging $300 million. We're 
going to have $30 million available to actually do construction 
with
    Mr. Mica. So the numbers don't work.
    Mr. Burgett. And that's on the US Highway.
    Mr. Mica. Mr. Policinski.
    Mr. Policinski. With this idea of RIIZes, regional 
infrastructure improvement zones, these are in fact public/
private partnerships. And you put in, instead of the local 
money, you're going to be putting private sector dollars.
    I think it's important that we recognize, as I'm sure you 
do, that the private sector might be more attuned to economic 
development projects than the government. Consequently, those 
projects that would move most quickly would have the biggest 
bang for the buck. So as far as this idea of RIIZes, they are 
public/private partnership. And we think they're a good one.
    Mr. Mica. Did you have something, Mr. Gattozzi?
    Mr. Gattozzi. I think our definition of public/private 
partnership is slightly different, but I think it's important. 
Our point is that there are projects of local significance, but 
that also have national or regional impact as well.
    And making those investments so that you get a return on 
investment model, to look at what are the jobs going to be 
created? What is the money going into the project? Does it make 
it worthwhile to make that transportation investment, put those 
dollars into it?
    So not only from the highway, so we can have the smoothest 
highway, but if you don't have the feeder into the project, 
you're not going to be able to move those goods and services 
through.
    And so I think getting that input from the local community 
on a regional basis is critically important to understand the 
prioritization, because we realize that those dollars are 
limited. So let's prioritize those projects that are going to 
result in economic development and private investment in 
facilities and job creation.
    Mr. Mica. Mr. Tuttle, you represent an incredible part of 
our economy. And if anyone wants to see what makes the country 
grow and grow, it is the masterful private sector trucking 
industry that is the backbone of our economy.
    Sometimes I get criticized when I'm trying to get as many 
trucks off the road as possible, but I don't mean that in a 
derogatory sense. I mean that I'm trying to save you fuel.
    And when it gets to four or five bucks, you'll be 
supporting some of the proposals that I would champion, and try 
to get more on rail, even drive-on. Whatever we can do. I'm 
trying to get you to maximize that great service that you 
provide, and hopefully make even better profits. We're looking 
at solutions, and we welcome your suggestions. We'll look at 
the hour thing as we go along.
    Finally, Mr. Fromm is a businessman who has invested in and 
bought the assets of Colorado Railcar. And his predecessor, Mr. 
Rader, I think, was an incredible entrepeneur in developing a 
diesel motorized unit--those are self-propelled railcars--at 
his own expense. No Federal development money.
    Then he went further than anyone in the United States in 
getting the vehicle crash tested at his own expense, and put it 
all together. It is doing fairly well, and we actually acquired 
some for Florida that run in the TRI-RAIL system. We're on our 
way to Portland tomorrow, and I haven't seen those, but we'll 
look at those.
    On the fourth of March, what I highly recommend to those 
folks in Ohio coming down to Miami is that we're going to have 
a display of his vehicles that have been running for years with 
great fuel efficiency, very low emissions, cost-competitive to 
other options.
    But unfortunately, Mr. Rader got involved in some other 
investments, and then got hit by the economy and went bankrupt, 
I believe it was. And Mr. Fromm made a very wise investment in 
securing all of that technology and the ability to produce 
those vehicles.
    I am sold on them. I think that the problem he's had is 
that he's had to deal with the Federal bureaucracy to put a 
self-propelled passenger vehicle on some existing or semi-
abandoned routes that run through the hearts of cities, and 
that could provide an essential service at the lowest possible 
cost.
    And God help us, the process is just so cumbersome, it's 
amazing that anything can be done. But we're going to see if we 
can't get something done to get that kind of technology that 
has been developed in the United States back here, and he's 
looking, I think, at manufacturing and activities located here 
in this area. So we're pleased to see you, and thank you for 
coming.
    I have spoken too long. And what I want to do is again 
thank our hosts. Mr. Gibbs, Mr. Stivers, this is your hometown. 
Ms. Schmidt, you're close by. Ohio is well-represented. If I 
had more Members like this on the Committee and in Congress, we 
would do incredible things for the country.
    But the problem is, I have to deal with people like Mr. 
Shuster. Thanks again, Bill. But all kidding aside, we do have 
a great working team. We're pleased to be here, in the 
Statehouse of all places.
    We are a little bit behind schedule, so we don't mean to be 
rude, but Mr. Shuster and I are supposed to do a similar 
session in Indianapolis very shortly. We'll leave the Ohio 
members to your pleasure, and thank you so much to our 
witnesses and those in the audience. If you're in the audience 
and you heard something that you want to comment on, let us 
know.
    If you have suggestions, positive things that you want to 
see in the bill, we want you to get them to one of these 
Members that are on the Committee. We'll even take some from 
Mr. Stivers, who is not on. But get them to us. We're going to 
move forward with this so we can provide the stability over the 
long term.
    And I've threatened to take anyone else that says anything 
less than a six year bill, that sets forth the policy, the 
projects, the funding formula, lays out the whole landscape so 
we can be good Federal partners--I've promised to take anyone 
outside and beat him up that says that we're going to do a 
shorter term bill, or not do a bill. So we're going to be able 
to do that, with your help.
    There being no further business to come before the 
Transportation and Infrastructure Committee of the United 
States House of Representatives, this field hearing in 
Columbus, Ohio, is adjourned. Thank you.
    [Whereupon, at 12:33 p.m., the hearing was adjourned.]

</pre></body></html>
